  ACCOUNTABILITY AND INVENTORY LEVELS OF AIR FORCE
 MEDICAL WAR RESERVE MATERIAL AT FORT WORTH, TEXAS


Report Number 98-163                            June 24, 1998




              Office of the Inspector General
                  Department of Defense
 Additional Information and Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate
 at (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the
 Inspector General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) m-8932.
 Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms

AFMLO               Air Force Medical Logistics Office
DEPMEDS             Deployable Medical Systems
MEDLOG              Medical Logistics System
WRM                 War Reserve Material
                                      INSPECTOR     GENERAL
                                      DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                      ARLINGTON. VIRGINIA 22202




                                                                          June 24, 1998


MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Audit Report on Accountability and Inventory Levels of Air Force Medical
         War Reserve Material at Fort Worth, Texas (Report No. 98-163)


        We are providing this report for review and comment. Comments from the Air
Force were received too late to be included in the final report. DOD Directive 7650.3
requires that all recommendations be resolved promptly. Therefore, if the Air Force
does not submit additional comments by July 24, 1998, we will consider the comments
received as the response to the final report.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Michael A. Joseph, at (757) 766-9108
(mjoseph@dodig.osd.mil) or Mr. Michael F. Yourey, at (757) 766-3268
(myourey@dodig.osd.mil).    See Appendix C for the report distribution. The audit
team members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                          Offrce of the Inspector General, DOD

Report No. 98-163                                                            June 24,1998
 (Project No. 7LF-0050)

         Accountability and Invent0 Levels of Air Force Medical
               War Reserve Materi 3 at Fort Worth, Texas
                                  Executive Summary
Introduction.   This is the first in a series of reports on the efficiency and effectiveness
of deployable medical systems (DEPMEDS) used by the Military Departments.
DEPMEDS are standardized modular field hospitals that can be pre-positioned in the
event of a contingency, national emergency, or war operations. The Air Force
DEPMEDS are air transportable clinics, air transportable hospitals, and contingency
hospitals. During the audit, the Air Force warehoused 10 air transportable hospitals
and other associated war reserve material at two Government warehouses in
Fort Worth, Texas. In 1996, DOD issued a new strategy to provide health service
support for future battlefield situations. The health services support would be smaller,
operate at greater distances from the enemy, and employ state-of-the-art technological
advancements and innovations capable of providing medical care in theater. According
to Air Force data, $45.5 million of medical war reserve material is maintained in
Fort Worth to support DEPMEDS projects.

Audit Objective.    The overall audit objective was to determine whether DEPMEDS
operations are managed effectively and efficiently. This report discusses how the
Air Force accounted for and managed its medical war reserve material at Government
warehouses in Fort Worth. We also reviewed the adequacy of the management control
program as it applied to the specific objective. In subsequent reports, we will discuss
the overall objective.

Audit Results. The Air Force maintained adequate accountability over medical war
reserve material warehoused at Fort Worth; however, it warehoused about $33 million
of medical war reserve material that was not needed to satisfy its DEPMEDS
requirements. Timely disposal of the unneeded medical war reserve material would
allow DOD to reduce leased warehouse costs by about $260,000 annually, or
$1.6 million over the Future Years Defense Program for FY 1999 through FY 2004.
Additional benefits associated with administrative and operating costs of the warehouse
and reutilization of the unneeded material should occur as a result of the disposal. See
Part I for a discussion of the audit results and Appendix A for details on the
management control program.
Summary of Recommendations. We recommend that the Commander, Air Force
Medical Support Agency direct the Chief, Air Force Medical Logistics Office to
dispose of the unneeded medical war reserve material and return the associated leased
space back to the General Services Administration.

Management Comments. The Air Force agreed with disposing of material that is not
needed. The Air Force did not agree with the amount identified as not needed.
Detailed comments from the Air Force were received too late to be included in the final
report. If the Air Force does not submit additional comments by July 24, 1998, we
will consider the comments received as the response to the final report.




                                           ii
Table of Contents
Executive Summary                                  i

Part I - Audit Results
      Audit Background                         2
      Audit Objectives                         4
      Medical War Reserve Material             5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                 10
        Management Control Program            11
      Appendix B. Summary of Prior Coverage
      Appendix C. Report Distribution         t:
Part I - Audit Results
Audit Background

    Deployable Medical Systems. The Deployable Medical Systems (DEPMEDS)
    are standardized modular field hospitals that can be pre-positioned in the event
    of a contingency, national emergency, or war operations. DEPMEDS increase
    the capabilities of the Military Departments for providing adequate care to
    deployed forces. DEPMEDS use shipping containers for their self-contained
    hospital facilities, such as pharmacies, radiology laboratories, and surgery
    clinics.

    Joint Vision 2010. In July 1996, the Chairman of the Joint Chiefs of Staff
    issued Joint Vision 2010. Joint Vision 2010, which emphasizes modern and
    emerging technologies and innovations, establishes the strategy for providing
    health services support for future battlefield situations. The strategy outlines the
    deployment of small, mobile, and capable facilities to provide medical care in
    theater. The facilities must be flexible and adaptable to specific missions that
    range from major theater wars to operations other than war. The new approach
    to theater medical care resulted from the end of the Cold War and the
    downsizing of DOD.

    Air Force DEPMEDS. The Air Force DEPMEDS are air transportable clinics,
    air transportable hospitals, and contingency hospitals. Air transportable clinics
    provide limited outpatient and short-term care, cardiac life support, and limited
    laboratory and patient holding capability. Air transportable hospitals provide
    casualty and trauma screening and management; resuscitative, general, and
    orthopedic surgical stabilization; dental and psychiatric services; and evacuation
    preparation of patients from forward locations. Contingency hospitals provide
    general and specialized surgery, dental and medical care, and stabilization of
    patients for further air evacuation. Other medical platforms and war reserve
    material (WRM) assets warehoused by the Air Force at Fort Worth, Texas, are
    mobile aeromedical staging facilities and required patient movement items,
    hospital surgical expansion packages, resupply packages for air transportable
    hospitals, WRM assets on loan to other Air Force units, decommissioned
    WRM, and centrally procured assets and specialty sets. The total value of
    WRM assets on hand at Fort Worth is about $45.5 million. Of the
    $45.5 million, $4.5 million is WRM assigned for DEPMEDs (10 air
    transportable hospitals) and $7.9 million is associated with the other medical
    platforms and WRM assets. The remaining $33.1 million is unneeded WRM.

    Air Force Office Responsible for Medical WRM. The Air Force Medical
    Support Agency is a field operating agency headquartered at Brooks Air Force
    Base, Texas. Its mission is to improve global performance, capability, and
    cost-effectiveness of medical services in supporting combat forces and


                                         2
maintaining the health of beneficiaries. The Medical Logistics Division of the
Air Force Medical Support Agency develops plans and policies concerning
medical materiel, biomedical equipment maintenance and repair, service
contracts, medical materiel support, and medical facilities management for
medical service missions during peacetime and war. The Air Force Medical
Logistics Office (AFMLO), Fort Detrick, Maryland, is an operational element
of the Medical Logistics Division. It functions as an operational control center
for medical material in direct support of all base medical facilities, major
commands, Air Force Reserve, Air National Guard, and various Defense supply
centers. It is the single Air Force manager of medical commodities and
provides the base and major command technical operational guidance to medical
materiel maintenance organizations. Medical WRM is stored in Government
warehouses at Fort Worth, and at the Marine Corps Logistics Support Base,
Albany, Georgia. The Air Force is planning to close the Albany warehouse in
March 1998, and has shipped the resupply packages for the air transportable
hospitals to the warehouse in Fort Worth. The AFMLO is deciding how to
dispose of the remaining $14 million in material stored at Albany.

Medical Logistics System. The Medical Logistics System (MEDLOG) is a
data base, managed by the Air Force Medical Support Agency, that tracks and
identifies requisitions, purchases, receipts, inventory levels, issues, and
shipments for Air Force medical stock record accounts. It maintains
accountable records, storage locations, and expiration dates and is used to
control Air Force medical equipment and supply material for military treatment
facilities and DEPMEDS. Additionally, it allows Air Force managers to track
the age of shelf-life items, to identify material available for shipment to Air
Force, identify unit overages and shortages, and to determine the percentage of
fill. MEDLOG generates a Stock Status Work List, which monitors the
monthly processing of medical WRM.

Defense Inventory Management. The 1996 and 1997 edition of the DOD
Logistics Strategic Plan set inventory reduction as one of several goals aimed at
streamlining the logistics infrastructure. The Strategic Plan states that every
logistics dollar expended on unneeded inventory is a dollar not available to
build, modernize, or maintain warfighting capability.




                                    3
Audit Objectives

     The overall audit objective was to determine whether DEPMEDS operations are
     managed effectively and efficiently. The specific objective of this report was to
     determine how the Air Force accounted for and managed $45.5 million of
     medical WRM at Fort Worth. We also reviewed the adequacy of the
     management control program as it applied to the specific objective.

     This report is the first in a series of reports on the management of the
     DEPMEDS operations. We plan to issue additional reports on the Military
     Departments’ efficiency and effectiveness of DEPMEDS operations. See
     Appendix A for a discussion of the scope and methodology and of our review of
     the management control program. See Appendix B for a summary of prior
     coverage related to the audit objectives.




                                         4
                Medical War Reserve Material
                The AFMLO warehoused about $33 million of medical WRM that was
                not needed to satisfy DEPMEDS requirements. This unneeded material
                was maintained because the AFMLO did not initiate action to timely
                dispose of material no longer required to support DEPMEDS. Timely
                disposal of the unneeded medical WRM would allow DOD to reduce
                leased warehouse costs by about $260,000 annually. Air Force
                Operation and Maintenance appropriations of $1.6 million could be put
                to better use over the Future Years Defense Program for FY 1999
                through FY 2004. Additional benefits associated with administrative and
                operating costs of the warehouse and reutilization of the unneeded
                material by other Government entities will occur as a result of the
                disposal.



Inventory

The AFMLO warehoused medical WRM that was not needed to satisfy DEPMEDS
requirements. The Stock Status Work List identified 4,187 items of medical WRM,
totaling about $45.5 million, that were stored at Fort Worth as of November 30, 1997.
The November 1997 Stock Status Work List showed that $33.1 million of the
$45.5 million of medical WRM warehoused at Fort Worth was not needed. Table 1
shows unneeded medical WRM reported by AFMLO, and warehoused at Fort Worth
during 1995, 1996, and 1997.

              Table 1. Fort Worth Inventory for FYs 1995 Through 1997
                                 1995’                       1996*      p$Q
Active DEPMEDS4                  $11.4                       $11.8      $12.4
Unneeded WRM                      2h9                         37.2       33.1
 Total Inventory                 $48.3                       $49.0      !$45.5

‘Annual physical inventory report dated October 3 1, 1995.
*Annual physical inventory report &ted September 30, 1996.
3Monthly Stock Status Work List dated November 30, 1997.
4Medical WRM assigned to valid DEPMEDS projects.

As shown in Table 1, the unneeded inventory at Fort Worth has consistently accounted
for an average of 75 percent of the total inventory. AFMLO medical logistics
personnel at Fort Worth reduced the unneeded inventory by $3.8 million from
FY 1995 through FY 1997. Table 2 shows examples of unneeded medical WRM
warehoused at Fort Worth, and compares the number of Air Force required line items
to the quantities on hand as of December 5, 1997.
                                                 5
Medical War Reserve Material



                         Table 2. Examples of Medical WRM                                  1
                                                                                  Dollar
       Item                          Reauired on-hand Ynn=dd                       Value
Adhesive tape                                0       1,191         1,191    $      6,932
Anesthesia ventilator                       14          20             6         46,873
Blood gas analyzer                           0            8            8         60,504
Blood plasma refrigerator                    0            3            3         49,574
Cardiovascular guide wire                    0          43            43         12,145
Catheter guide wire                          0          47            47         13,547
Defibrillator                               18          21             3         25,548
Disposable arterial catheter                 0          86            86           6,753
Electric dental amalgamator                  4          12             8           2,220
Field operating table                        0            9            9         30,755
Metal field commode                         16         140           124          13,005
Humidifier inhalation apparatus             16         215           199          17,922
Medical ward tent                            2         107           105      3,574,268
Mobile screen X-ray projector                4           16           12           9,511
Refrigerator-freezer                        24          76            52         37,134
Suction/press surgical apparatus             0          38            38         40,405
Surgical knife blade                         1          60            59           3,337
Two-wheeled hand truck                       0         195           195          12,870
X-ray apparatus                              0           17           17      7,193,517


Some of the items warehoused at Fort Worth had no DEPMEDS requirement. For
example, 17 X-ray apparatus costing about $7.2 million were not required in any of the
Air Force DEPMEDS.

Disposal of Unneeded Inventory. The $33.1 million of unneeded medical WRM was
stored at Fort Worth because the Air Force did not initiate action for the timely
disposal of material no longer required to support DEPMEDS. DOD
Regulation 4 140.1 -R, UDOD Material Management Regulation, ” January 25, 1993,
states that material shall be retained in inventory in quantities sufficient to support the
number of systems in use and quantities shall be reduced in proportion to any
reduction. Air Force Manual 23-l 10, volume 5, “Medical Material Management
System,” February 24, 1997, provides that stock in excess of requirements is potential
reutilization stock and shall be subject to transfer to the disposal organization. The
Manual further provides that logistics personnel should also eliminate wasteful retention
practices and achieve cost savings in the retention of stock by the timely handling of
disposals. Air Force policy requires the canvassing of other Air Force units, Military
Departments, and other DOD organizations for possible use of items before they are



                                             6
                                                       Medical War Reserve Material


disposed of through the Defense Reutilization and Marketing Office. AFMLO
personnel informed us that they did not initiate disposal procedures for the unneeded
medical WRM because they planned to use the material for proposed specialty sets.

Specialty sets are additional medical modules that would enhance the capabilities of
existing DEPMEDS. The Air Force is developing 27 specialty sets, such as
angiography-fluoroscopy, endodontics, mental health augmentation, pediatrics,
periodontics, and urology. In its development of specialty sets, the Air Force is
developing draft tables of allowances, which show the material needed for each
specialty set. The Surgeon General of the Air Force is expected to approve nine draft
tables of allowances in the Spring of 1998. As part of our audit work, we requested
AFMLO personnel to use the draft tables of allowances to determine how much of the
unneeded medical WRM at Fort Worth could be used in the specialty sets. AFMLO
personnel identified about $129,000 of the $33.1 million of unneeded medical WRM
stored at Fort Worth that could be used in the proposed specialty sets. The remaining
$33 million was not needed for DEPMEDS requirements. Draft tables of allowances
for the remaining 18 specialty sets were not fully developed. However, if the
proportion of usable unneeded material for the remaining 18 medical would be
comparable to the first 9 specialty sets, then maintaining the unneeded material would
cost more than disposing of it immediately and replacing it if necessary.

Effect of Warehousing     Unneeded Material. Disposing of unneeded medical WRM
will help DOD reduce leased warehouse costs by about $260,0       annually. Although
the unneeded medical WRM accounted for $33.1 million (73 percent) of the inventory,
it occupied about 117,385 square feet (31 percent) of the total 378,660 square feet of
warehouse space. AFMLO occupies five bays in one warehouse and four bays in
another. The unneeded medical WRM is stored in two full bays in one warehouse and
two partial bays in the second. Disposing of the unneeded medical WRM would enable
the Air Force to return three storage bays to the General Services Administration,
which requires a 120-day written notice of intent to terminate use of space.
Termination costs would not be incurred. AFMLO personnel agreed with our costing
methodology. By disposing of the unneeded inventory and reducing warehouse space,
DOD could put to better use about $1.6 million of Air Force Operation and
Maintenance appropriations for FYs 1999 through 2004 Future Year Defense Program.

Our estimate of the annual costs associated with the unneeded material is conservative.
We did not quantify cost avoidance or funds put to better use associated with reduced
administrative costs or operating costs, such as salaries and benefits. Warehouse
operating costs at Fort Worth totaled about $1.2 million in FY 1997, excluding military
salaries. Additional funds may be put to better use if a portion of the unneeded
material is used by other Government entities as a result of the disposal process. The
benefits associated with reductions in administrative and operating costs, and with
reutilized material not needed at Fort Worth should be quantified as the disposal
process occurs.
Medical War Reserve Material

The Air Force can contribute toward the DOD goal to reduce supply inventory by
$12 billion by year 2000 by improving its management of warehousing and disposing
of unneeded medical WRM.


Recommendations for Corrective Action

We recommend that the Commander, Air Force Medical Support Agency, Office of the
Air Force Surgeon General:

       1. Direct the Chief, Air Force Medical Logistics Office to dispose of unneeded
medical war reserve material.

      2. Return the leased space to the General Services Administration that was
made available by the disposing of unneeded medical war reserve materiel.

Management Comments Required. Comments from the Air Force were received too
late to be considered in preparing the final report. Therefore, if the Air Force does not
submit additional comments, we will consider the comments received as the response to
the final report.




                                            8
Part II - Additional Information
Scope and Methodology

    We discussed medical WRM requirements with medical logistics personnel to
    obtain requirements for the line items on hand at Fort Worth. We also
    reviewed annual physical inventory reports dated October 3 1, 1995, and
    September 30, 1996, and the November 30, 1997, Stock Status Work List. We
    selected 25 line items, valued at about $8 million, from the work list and
    compared reported quantities with actual quantities on hand to verify the
    accuracy of the accountable records. We also selected 25 line items, valued at
    about $4 million, from various storage locations and compared quantities on
    hand with the work list. We found no significant differences between the
    perpetual inventory generated by the MEDLOG and the actual on-hand
    inventory for the line items selected. Additionally, we verified that 31 line
    items of unneeded medical WRM, valued at about $2.6 million, in FY 1997
    were properly disposed of by AFMLO and were properly accounted for at the
    disposal activity. We reviewed documentation covering the period from
    October 31, 1995, through February 18, 1998. We did not use statistical
    sampling procedures for this audit. The items reviewed were judgmentally
    selected, and the results cannot be projected to the universe of the medical
    WRM stored at Fort Worth.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the DOD
    has established 6 DOD-wide corporate level performance objectives and 14 goals
    for meeting these objectives. This report pertains to achievement of the
    following objective and goal.

             Objective: Fundamentally reengineer DOD and achieve a 21st century
    infrastructure. Goal: Reduce costs while maintaining required military
    capabilities across all DOD mission areas. (DOD-~)

    National Performance Review Reinvention Impact Center Goal. This report
    relates to achievement of the goal of reducing supply inventory by $12 billion
    by year 2000. (ACQ-3.3)




                                       10
                                                       Appendix A. Audit Process

    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

    l   Health Care Functional Area. Objective: Ensure joint medical readiness
        capabilities. Goal: Align our resources to support the prioritized
        requirements of our operational forces. (MHS-1.3)

    l   Logistics Functional Area. Objective: Streamline logistics infrastructure.
        Goal: Implement most successful business practices (resulting in reductions
        of minimally required inventory levels). (LOG-3.1)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in DOD. This report provides coverage of
    the Defense Inventory Management high risk area.

    Use of Computer-Processed Data. We used computer-processed information
    and reports for medical equipment and supply data that were generated by the
    MEDLOG. To the extent that we used the computer-processed data, we
    determined that there were no significant differences between inventory levels
    and the computer-processed data that would preclude use of the
    computer-processed data in arriving at our audit conclusions.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from September 1997 through January 1998, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.




                                       11
ADWI&~   A. Audit Process



     Scope of Review of Management Control Program. We reviewed the
     adequacy of Air Force management controls over accountability and inventory
     levels of medical WRM at Fort Worth. Specifically, we reviewed Air Force
     management controls over maintaining accurate inventory records of medical
     WRM on hand, and turn in of excess material. We also reviewed Air Force
     management controls for ensuring that inventory levels were kept to a
     minimum and that only medical WRM needed for valid DEPMEDS was
     warehoused. We reviewed management’s self-evaluation applicable to those
     controls.

     Adequacy of Management Controls. At the Air Force industrial operation
     center at Fort Worth, we identified a material management control weakness, as
     defined by DOD Directive 5010.38, in the management of medical WRM
     inventory. Management controls within the Air Force industrial operation
     center ensured that adequate accountability was maintained over medical WRM
     at Fort Worth; however, it did not ensure that only the medical WRM needed
     to support valid DEPMEDS was warehoused. The recommendations, if
     implemented, may reduce warehousing costs by about $260,000 annually. A
     copy of the report will be provided to the senior official in charge of
     management controls for the Air Force.

     Adequacy of Management’s Self-Evaluation. The Air Force identified
     medical logistics as an assessable unit. However, in its self-evaluation, the Air
     Force did not identify the specific material management control weakness
     identified by the audit because the evaluation covered a much broader area.




                                         12
Appendix B. Summary of Prior Coverage


General Accounting Office

    General Accounting Oftice Report No, NSIAD 97-71 (OSD Case No. 1284),
    “Defense Logistics: Much of the Inventory Exceeds Current Needs,”
    February 28, 1997. The report concludes that half of the DOD $69.6 billion
    inventory of spare parts, medical supplies, hardware, food, and clothing is
    either obsolete or rarely used. The underlying causes include outdated and
    inefficient inventory management practices, inadequate inventory oversight,
    weak financial accountability, and overstated requirements. The report
    contained no recommendations.



Department of the Army

    Army Audit Agency Report No. AA-98-1, “Audit of the Management of
    Deployable Medical Systems,” October 9, 1997. The report concludes that
    the Army has more DEPMEDS sets than needed to satisfy its deployment
    requirements. Specifically, 14 DEPMEDS sets costing abut $158 million were
    no longer required to support wartime health care needs. Further, the report
    concluded that the Army was storing about $86 million of additional equipment
    that was not needed to support the DEPMEDS sets. The report recommended
    reducing the requirement for 14 DEPMEDS and eliminating unneeded support
    WRM. Management generally concurred with both recommendations.




                                      13
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program Budget)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          14
                                                    Appendix C. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
   National Security Division Special Projects Branch
General Accounting Office
   National Security and International Affairs Division
     Technical Information Center
   Health, Education and Human Services

Chairman and ranking minority member of each of the following congressional
committees and subcommittees

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
   Committee on Government Reform and Oversight
House Committee on National Security




                                            15
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this report.

Shelton R. Young
Michael A. Joseph
Michael F. Yourey
Scott J. Grady
Suzanne M. Hutcherson
Christine S. Bowles
Danny 0. Hatten
Elmer J. Smith
